      Department of Homeland Security





                        Evaluation of
            DHS’ Information Security Program for
                       Fiscal Year 2012




OIG-13-04                                      October 2012

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov



                                      October 24, 2012

MEMORANDUM FOR:              Emery Csulak
                             Acting Chief Information Security Officer

FROM:                        Frank W. Deffer
                             Assistant Inspector General
                             Information Technology Audits

SUBJECT:                     EvaluationfoffDHS’fInformationfSecurityfProgramfforfFiscalf
                             Yearf2012f

Attached for your action is our final report, EvaluationfoffDHS’fInformationfSecurityfProgramf
forfFiscalfYearf2012.ffWe incorporated the formal comments from the Director, Departmental
GAO-OIG Liaison Office, in the final report.

The report contains six recommendations aimed at improving the Department’s
information security program. The Department concurred with all recommendations. As
prescribed by the Department of Homeland Security Directive 077-1, Follow-Up and
Resolutions for the Office of Inspector General Report Recommendations, within 90 days of
the date of this memorandum, please provide our office with a written response that
includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will
be considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Chiu-Tong Tsang, Director,
Information Security Audit Division, at (202) 254-5472.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents

Executive Summary............................................................................................................. 1


Background ......................................................................................................................... 2


Results of Evaluation ........................................................................................................... 4


Recommendations ........................................................................................................... 21


Management Comments and OIG Analysis ..................................................................... 22 


Appendixes
           Appendix A:          Objectives, Scope, and Methodology............................................ 25 

           Appendix B:         Management Comments to the Draft Report ............................... 27 

           Appendix C:         System Inventory ........................................................................... 30 

           Appendix D:          Status of Risk Management Program ............................................ 34 

           Appendix E:         Status of Configuration Management Program ............................ 36 

           Appendix F:         Status of Incident Response and Reporting Program .................... 38 

           Appendix G:          Status of Security Training Program .............................................. 40 

           Appendix H:          Status of Plans of Actions and Milestones Program ..................... 42 

           Appendix I:         Status of Remote Access Program ................................................. 44 

           Appendix J:         Status of Account and Identity Management Program.................. 46 

           Appendix K:         Status of Continuous Monitoring Program.................................... 48 

           Appendix L:         Status of Contingency Planning Program....................................... 50 

           Appendix M:          Status of Agency Program to Oversee Contractor Systems .......... 52 

           Appendix N:          Status of Security Capital Planning Program ................................. 53 

           Appendix O:          Major Contributors to This Report................................................ 55 

           Appendix P:         Report Distribution ........................................................................ 56 


Abbreviations
           ATO                   Authority to Operate 

           CBP                   Customs and Border Protection 

           CISO                  Chief Information Security Officer 

           CPIC                  Capital Planning and Investment Control 

           DHS                   Department of Homeland Security 

           FEMA                  Federal Emergency Management Agency

           FIPS                  Federal Information Processing Standards 



www.oig.dhs.gov                                                                                                         OIG-13-04
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


       FISMA 	      FederalfInformationfSecurityfManagementfAct
       FY 	         fiscal year
       HQ 	         Headquarters
       HSPD-12 	    Homeland Security Presidential Directorate 12
       ICAM PMO 	   Identity, Credential, and Access Management Program
                    Management Office
       ICE 	        Immigration and Customs Enforcement
       ISO 	        Information Security Office
       ISSO 	       Information System Security Officer
       IT 	         information technology
       MGMT 	       Management Directorate
       NIST 	       National Institute of Standards and Technology
       NPPD 	       National Protection and Programs Directorate
       OIG 	        Office of Inspector General
       OMB 	        Office of Management and Budget
       PIV 	        Personal Identity Verification
       POA&M 	      Plan of Action and Milestones
       RMS 	        Risk Management System
       S&T 	        Science and Technology Directorate
       SA 	         System Administrator
       SOC 	        Security Operations Center
       SP 	         Special Publication
       TIC 	        Trusted Internet Connections
       TSA 	        Transportation Security Administration
       USCG 	       United States Coast Guard
       USCIS 	      United States Citizenship and Immigration Services
       USGCB 	      United States Government Configuration Baseline
       USSS 	       United States Secret Service




www.oig.dhs.gov	                                                          OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
We conducted an independent evaluation of the Department of Homeland Security
(DHS) information security program and practices to comply with the requirements of
the FederalfInformationfSecurityfManagementfAct. In evaluating DHS’ progress in
implementing its agency-wide information security program, we specifically assessed
the Department’s plans of action and milestones, security authorization processes, and
continuous monitoring programs. We performed fieldwork at both the program and
component levels.

DHS continues to improve and strengthen its security program. During the past year,
DHS developed and implemented the FiscalfYearf2012fInformationfSecurityfPerformancef
Plan to focus on areas that the Department would like to improve upon throughout the
year. Specifically, DHS identified in the performance plan several key elements that are
indicative of a strong security program, such as plans of action and milestones weakness
remediation. In addition, DHS has taken actions to address the Administration’s
cybersecurity priorities, which include implementing trusted Internet connections,
continuously monitoring DHS information systems, and employing personal identity
verification compliant credentials to improve logical access for its systems.

While these efforts have resulted in some improvements, components still are not
executing all of the Department’s policies, procedures, and practices. In addition, our
review identified the following more significant exceptions to a strong and effective
information security program: (1) systems are being authorized though key information
is missing or outdated; (2) plans of action and milestones are not being created for all
known information security weaknesses or mitigated in a timely manner; and (3)
baseline security configurations are not being implemented for all systems. Additional
information security program areas that need improvement include incident detection
and analysis, specialized training, account and identity management, and contingency
planning. Finally, the Department still needs to (1) consolidate all of its external
connections, (2) implement a near-real-time monitoring capability, and (3) employ
personal identity verification compliant cards for logical access on its information
systems.

We are making six recommendations to the Chief Information Security Officer. The
Department concurred with all recommendations and has begun to take actions to
implement them. The Department’s responses are summarized and evaluated in the
body of this report and included, in their entirety, as appendix B.




                                           1

www.oig.dhs.gov                                                                OIG-13-04
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Background
Due to the increasing threat to information systems and the highly networked nature of
the Federal computing environment, Congress, in conjunction with the Office of
Management and Budget (OMB), requires an annual review and reporting of agencies’
compliance with FederalfInformationfSecurityfManagementfActf(FISMA) requirements.
FISMA focuses on the program management, implementation, and evaluation of the
security of unclassified and national security systems.

Recognizing the importance of information security to the economic and national
security interests of the United States, Congress enacted Title III of the E-Governmentf
Actfoff2002 (Public Law 107-347, Sections 301-305) to improve security within the
Federal Government. Information security means protecting information and
information systems from unauthorized access, use, disclosure, disruption, modification,
or destruction. Title III of the E-GovernmentfAct, entitled FISMA, provides a
comprehensive framework to ensure the effectiveness of security controls over
information resources that support Federal operations and assets.

FISMA requires each Federal agency to develop, document, and implement an
agency-wide security program. The security program should protect the information
and the information systems that support the operations and assets of the agency,
including those provided or managed by another agency, contractor, or other source.
As specified in FISMA, agency heads are charged with conducting an annual evaluation
of information programs and systems under their purview, as well as an assessment of
related security policies and procedures. Offices of Inspector Generals (OIG) must
independently evaluate the effectiveness of an agency’s information security program
and practices on an annual basis.

OMB issues updated instructions annually for agency and OIG reporting under FISMA.
Our annual FISMA evaluation summarizes the results of our review of DHS’ information
security program and practices based on the draft reporting guidance dated
March 6, 2012.1

In March 2012, the Cybersecurity Coordinator and Special Assistant to the President
identified three Administration priorities and recommended that Federal agencies focus




1
  On October 2, 2012, OMB issued Memorandum M-12-20, FYf2012fReportingfInstructionsfforfthefFederalff
fInformationfSecurityfManagementfActfandfAgencyfPrivacyfManagement.

                                                 2

www.oig.dhs.gov                                                                           OIG-13-04
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


their resources on the most effective controls to improve cybersecurity and the security
of Federal information systems:2

•	 Trusted Internet Connections (TIC) – consolidate external telecommunication
   connections and ensure a set of baseline security capabilities for situational
   awareness and enhanced monitoring.

•	 Continuous Monitoring of Federal Information Systems – transforms the otherwise
   static security control assessment and authorization process into a dynamic risk
   mitigation program that provides essential, near real-time security status and
   remediation, increasing visibility into system operations and helping security
   personnel make risk-management decisions based on increased situational
   awareness.

•	 Strong Authentication – passwords alone provide little security. Federal smartcard
   credentials, such as Personal Identity Verification (PIV) and common access cards,
   provide multi-factor authentication and digital signature and encryption capabilities,
   authorizing users to access Federal information systems with a higher level of
   assurance.

The Administration’s goal is that, by the end of 2014, Federal agencies will achieve 95
percent utilization of critical Administration cybersecurity capabilities on Federal
information systems, including TIC, continuous monitoring, and strong authentication.
The Administration’s priorities are integrated with other Federal cybersecurity activities,
including OMB’s fiscal year (FY) 2011 FISMA report and FY 2012 FISMA metrics.

The Chief Information Security Officer (CISO), who leads the Information Security Office
(ISO), is responsible for managing DHS’ information security program. To aid in
managing its security program, the CISO developed the FiscalfYearf2012fDHSf
InformationfSecurityfPerformancefPlan to enhance DHS’ information security program
and continued to improve existing processes, such as continuous monitoring of its
information systems, system security authorizations, and plan of action and milestones
(POA&M) remediation. DHS uses enterprise management tools3 to collect and track
data related to all unclassified and classified POA&M activities, including weaknesses
identified during self-assessments and the security authorization process.4 DHS’
2
  FiscalfYearf2011fReportftofCongressfonfthefImplementationfoffThefFederalfInformationfSecurityf
ManagementfActfoff2002, March 7, 2012.
3
  DHS enterprise management tools collect and track only Sensitive But Unclassified and Secret POA&M
data.
4
  According to National Institute of Standards and Technology (NIST) Special Publication (SP) 800-37 -
GuidefforfApplyingfthefRiskfManagementfFrameworkftofFederalfInformationfSystemsf–fAfSecurityfLifef

                                                   3

www.oig.dhs.gov	                                                                             OIG-13-04
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


enterprise management tools also collect data on other FISMA metrics, such as the
number of systems that have implemented DHS’ security baseline configurations and
the number of employees who have received information technology (IT) security
training.

Results of Evaluation
Based on the requirements outlined in FISMA and the annual reporting instructions, our
independent evaluation focused on 11 key areas of DHS’ information security program.
Specifically, we reviewed the Department’s system inventory, risk management,
configuration management, incident response and reporting, security training, POA&M,
remote access, identity and access management, continuous monitoring, contingency
planning, and security capital planning across 10 components and offices.5 We
separated the results of our evaluation into these key areas. For each area, we
identified the progress that DHS has made since our FY 2011 evaluation and any issues
that DHS needs to address to become more successful in the respective information
security program area.

         Overall Progress

         DHS continued to improve its information security program during FY 2012. For
         example, the CISO:

         •	 Developed the FiscalfYearf2012fDHSfInformationfSecurityfPerformancefPlanf
            to enhance DHS’ information security program and continue to improve
            existing processes, such as continuous monitoring, POA&M, and security
            authorization.

         •	 Updated the Department’s baseline IT security policies and procedures in
            DHS Sensitive Systems Policy Directive 4300A and its companion, DHS 4300A
            Sensitive Systems Handbook, to reflect the changes made in DHS security
            policies and various NIST guidance.

CyclefApproach,fRevision 1, security authorizationfis the official management decision given by a senior
organizational official to authorize operation of an information system and to explicitly accept the risk to
organizational operations and assets, individuals, other organizations, and the Nation based on the
implementation of an agreed-upon set of security controls.
5
  Customs and Border Protection (CBP), Federal Emergency Management Agency (FEMA), Immigration
and Customs Enforcement (ICE), Management Directorate (MGMT), National Protection and Programs
Directorate (NPPD), Science and Technology Directorate (S&T), Transportation Security Administration
(TSA), United States Citizenship and Immigration Services (USCIS), United States Coast Guard (USCG), and
United States Secret Service (USSS).

                                                     4

www.oig.dhs.gov	                                                                                  OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



       •	 In April 2012, the DHS CISO issued its second StatefoffCybersecurityfatfThef
          DepartmentfoffHomelandfSecurity report. The report outlines how DHS
          anticipates and addresses emerging security risks from new technology
          products and advanced threat actor techniques, including its new initiatives
          and programs that ensure a secure computing environment within the
          Department. The report presents relevant information to employees for
          protecting their information and increasing the Department’s cybersecurity
          awareness.

       •	 The overall quality of security authorization documentation continues to
          improve in FY 2012. Compared with FY 2011, we identified fewer deficiencies
          in the security authorization documentation for the systems that were
          selected for review.

       Overall Issues To Be Addressed

       Despite the actions taken by the CISO to improve the Department’s overall
       information security program, we identified several issues that should be
       addressed to strengthen DHS’ security posture. For example, we determined
       that components are not satisfying all of the Department’s information security
       policies, procedures, and practices. Specifically, we identified deficiencies with
       component POA&M management, system security authorization, and
       continuous monitoring. In addition, components have not implemented all of
       the information system baseline configurations in accordance with DHS policies
       and procedures. For example, we identified the following deficiencies:

       •	 Components have not implemented all required United States Government
          Configuration Baseline (USGCB) settings on the information systems selected
          for review.

       •	 Components have not incorporated all known information security
          weaknesses into POA&Ms for the Department’s unclassified systems.

       •	 Artifacts supporting the authorization of selected systems were either
          missing key information or outdated, which restricts the ability of authorizing
          officials to make credible risk-based decisions.

       •	 DHS has not established a formal process to track its external information
          systems and cloud-based systems inventory. Currently, external information


                                            5

www.oig.dhs.gov	                                                                 OIG-13-04
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


            systems and cloud-based systems are maintained manually, outside of the
            DHS systems’ enterprise management inventory tools.

        •	 As part of DHS’ Cybersecurity Capability Validation assessment conducted in
           April 2012, the National Cyber Security Division’s6 Federal Network Security
           branch reported that nine external connections are not consolidated through
           an approved TIC access point.7 As required under OMB’s Implementationfoff
           TrustedfInternetfConnectionsf(TIC) memorandum, the Federal Government
           shall reduce the number of external connections, including Internet points of
           presence.8

        •	 DHS has not provided adequate oversight on its contractor-hosted websites
           to ensure that these external information systems are tested annually and
           that effective security controls have been implemented.

        System Inventory

        DHS continues to maintain and update its FISMA systems inventory, including
        agency and contractor systems, on an annual basis. In addition, DHS conducts
        site visits as part of its annual inventory update process.

        Progress

        •	 As of June 2012, DHS has a total of 675 systems, which include a mix of major
           applications and general support systems that are categorized as Sensitive
           But Unclassified, Secret, or Top Secret.

        •	 As of June 2012, DHS has conducted 71 component site visits as part of its
           annual refresh process, which includes providing components with additional
           guidance in the discovery of new systems, identification of system
           boundaries, and the resolution of any other inventory issues.

        Issues To Be Addressed



6
  The National Cyber Security Division, which is a division under the Office of Cybersecurity and
Communications within NPPD, is responsible for implementing OMB’s TIC initiative for the Federal
Government.
7
  TrustedfInternetfConnectionfInitiativefDepartmentfoffHomelandfSecurityfCybersecurityfCapability

ValidationfReport, April 2012.

8
  OMB Memorandum M-08-05,fImplementationfoffTrustedfInternetfConnectionsf(TIC),fNovember 20, 2007. 


                                                 6

www.oig.dhs.gov	                                                                          OIG-13-04
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        •	 As of July 2012, DHS has not established an automated capability to track the
           hardware devices and software deployed at all component sites.

        See appendix C for information on DHS’ system inventory and appendix M for
        the status of DHS’ Agency Program to Oversee Contractor Systems.

        Risk Management Program

        DHS requires components to use enterprise-wide tools that incorporate NIST
        security controls to perform their security authorizations. DHS uses the risk
        management system (RMS) automated tool to provide the basis for the controls
        to be identified in the various security authorization documents as well as
        templates for the security authorization documents, and its enterprise
        management tools to centralize the documents supporting the security
        authorization process and authority to operate (ATO) for each system.

        Components are required to use RMS to apply NIST SP 800-53 security controls
        for all system self-assessments. DHS uses security authorization artifacts created
        from RMS and uploaded into its enterprise management tools by the
        components to monitor their progress in authorizing systems, including the
        following:

        � Federal Information Processing Standards (FIPS) 199 Categorization
        � Privacy Threshold Analysis and, if required, Privacy Impact Assessment
        � e-Authentication
        � Security Plan
        � Contingency Plan
        � Security Assessment Plan
        � Contingency Plan Test Results
        � Security Assessment Report
        � Authorization Decision Letter which includes an updated Security Plan,
          POA&M, and Security Assessment Report
        � Annual Self-Assessments

        For some of the systems that were granted ATO, the artifacts that are required
        to support the authorization were missing, incomplete, or outdated. We
        identified a similar issue in our FY 2010 and FY 2011 FISMA reports.9


9
 EvaluationfoffDHS’fInformationfSecurityfProgramfforfFiscalfYearf2010f(OIG-11-01, October 2010),
EvaluationfoffDHS’fInformationfSecurityfProgramfforfFiscal Yearf2011 (OIG-11-113, September 2011).

                                                   7

www.oig.dhs.gov	                                                                            OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Progress

       •	 The overall quality of security authorization documentation has continued to
          improve in FY 2012. For example, compared with FY 2011, we identified
          fewer deficiencies within the security authorization documentation for the
          systems that were selected for review.

       Issues To Be Addressed

       •	 We selected 25 systems (20 Sensitive But Unclassified, 5 Secret) from 10
          components and offices to evaluate the quality of documents that support
          DHS’ security authorization process. For some of the systems that were
          granted ATO, the artifacts that are required to support the authorization
          were missing, incomplete, or outdated. Without this information, agency
          officials cannot make credible, risk-based decisions on whether to authorize
          the system to operate. Specifically, we determined that:

           � For 17 security plans, certain elements within the plans are missing,
             including sections that describe operational and configuration security
             controls.

           � Two systems did not have completed or updated FIPS-199 categorization
             worksheets. The FIPS-199 determination, when applied properly during
             the risk assessment process, helps agency officials to select applicable
             controls for the information systems.

           � Six classified systems are operating with an expired ATO. Some of these
             systems have been operating without an ATO since 2007.

           � Two systems did not have the outstanding risks and/or acceptance of
             those risks documented in the authorization decision letter and/or
             POA&M.

           � Two systems had outdated or nonexistent memorandums of
             understanding with organizations (external to the component) with
             which they are sharing data.

           � One system did not have a completed and approved privacy impact
             assessment.

       See appendix D for status on DHS’ Risk Management Program.

                                           8

www.oig.dhs.gov	                                                              OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security



       Plans of Action and Milestones Program


       DHS requires components to create and maintain POA&Ms for all known IT
       security weaknesses. In addition, DHS performs automated reviews on its
       unclassified and classified POA&Ms for accuracy and completeness and provides
       the results to components daily. Despite these efforts, components are not
       entering and tracking all IT security weaknesses in DHS’ unclassified and
       classified enterprise management tools, or ensuring that all of the data entered
       are accurate and updated in a timely manner.

       Progress

       •	 Components have created POA&Ms for all notices of findings and
          recommendations for the weaknesses identified during our FY 2011 financial
          statement audit.

       Issues To Be Addressed

       •	 Components are not correcting all deficiencies identified during DHS’
          POA&M quality reviews. Our review of DHS’ quality reports identified
          repeated deficiencies, such as inaccurate milestones, lack of resources to
          mitigate the weaknesses, and delays in resolving the POA&Ms that are not
          being corrected by the components. We identified similar problems in our
          FY 2010 and FY 2011 FISMA reports.

       •	 DHS did not monitor the adequacy of the POA&Ms for its Top Secret systems.
          For example, DHS did not perform any reviews or oversight functions on Top
          Secret POA&Ms that are manually tracked outside of the Department’s
          enterprise management tools. As a result, DHS cannot ensure that POA&Ms
          have been created to mitigate the security vulnerabilities identified on its
          Top Secret systems and that they are managed in accordance with the
          Department’s policies and procedures. We identified this issue in our
          FY 2011 report.

       •	 Based on our analysis of data from DHS’ enterprise management tools,
          component CISOs and information system security officers are not
          maintaining current information on the progress of security weakness
          remediation, and not all POA&Ms are being resolved in a timely manner. As
          of June 30, 2012, we identified the following deficiencies for POA&Ms that
          are classified as Sensitive But Unclassified and Secret.

                                           9

www.oig.dhs.gov	                                                              OIG-13-04
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



         Sensitive But Unclassified POA&Ms

             � Components are not monitoring the status of their high-priority POA&Ms
               or reviewing them for consistency and completeness. DHS requires
               component CISOs to monitor the progress of the POA&M implementation
               and remediation efforts. Specifically, component CISOs are required to
               review and approve all priority 4 and priority 5 POA&Ms to ensure that
               the weaknesses are properly prioritized, and that appropriate resources
               are identified for remediation.10 As of June 30, 2012, only 132
               (55 percent) of 241 priority 4 and 5 POA&Ms have been reviewed and
               approved by a component CISO.

             � Component CISOs are not updating information concerning all
               weaknesses. Of the 4,377 open POA&Ms with estimated completion
               dates, 348 (8 percent) were delayed by at least 3 months (prior to April 1,
               2012). Further, 127 POA&Ms had an estimated completion date more
               than 1 year old, dating as far back as March 2008. In addition, while 36
               POA&Ms have been designated as significant deficiencies, they have not
               been identified as material weaknesses as required by DHS POA&M
               guidance.

             � DHS requires that a reasonable resources estimate of at least $50 be
               provided to mitigate the weakness identified. Resources required for the
               remediation of 81 (2 percent) of 4,377 open POA&Ms either were not
               identified or did not meet the $50 requirement. Further, 307 (7 percent)
               of open POA&Ms are scheduled to take more than 2 years to mitigate the
               weaknesses. DHS and OMB require POA&Ms to be completed timely.

             � DHS requires that POA&M data be monitored and updated on a
               continuous basis, as events occur. In addition, all information in the
               POA&M must be updated at least monthly and be accurate on the first
               day of each month for Department tracking and reporting purposes. We
               determined that 1,245 POA&Ms, or 28 percent of open POA&Ms, have
               not been updated for 90 days as of June 30, 2012. Further, 157 POA&Ms
               have not been updated for a year (i.e., since June 30, 2011).




10
   Priority 4 weaknesses can be assigned to initial audit findings and priority 5 weaknesses to repeat audit
findings.

                                                     10

www.oig.dhs.gov	                                                                                 OIG-13-04
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


           � DHS requires components to develop a POA&M for its operational
             systems that have not received an ATO. We identified five instances
             where POA&Ms have not been created for operational systems that have
             not received an ATO.

       Secret POA&Ms

           � DHS and OMB require POA&Ms to be completed timely. However, we
             identified 40 (98 percent) of 41 open POA&Ms that are currently delayed.
             Further, 35 (88 percent) of the 40 POA&Ms have been delayed by at least
             3 months (prior to April 1, 2012), including 12 (30 percent) POA&Ms that
             have been delayed by more than 1 year (prior to June 30, 2011).

           � Thirty-seven (90 percent) of 41 open POA&Ms have not been updated
             within the past 90 days. Twelve of the 37 POA&Ms have not been
             updated in more than 1 year. DHS requires POA&Ms to be updated at
             least monthly.

       See appendix H for status on DHS’ POA&M Program.

       Configuration Management

       We evaluated the compliance with USGCB requirements on Windows
       workstations at CBP, DHS Headquarters (HQ), FEMA, ICE, NPPD, TSA, USCG,
       USCIS, and USSS. Results from our testing indicated that components have not
       implemented all required DHS baseline configuration settings. We reported a
       similar issue in our FY 2010 and FY 2011 reports.

       Additionally, we reviewed the servers and databases of nine systems that are
       categorized as high potential impact and contain personal information, as well as
       seven public-facing component websites, to determine whether DHS has
       implemented effective controls to secure its databases and websites. We
       identified vulnerabilities that may weaken the controls implemented to protect
       the data stored and processed by DHS’ databases and websites.

       Finally, we reviewed 24 different systems for compliance with applicable DHS
       baseline configuration requirements. Our results indicated that DHS baseline
       configuration guidelines have not been fully implemented, resulting in
       deficiencies in the areas of access controls, registry settings, user access, and
       general security controls.


                                            11

www.oig.dhs.gov	                                                                  OIG-13-04
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


       Progress

       •	 DHS HQ, TSA, USCG, and USCIS have implemented more than 85 percent of
          USGCB configuration settings on their workstations.
       •	 DHS HQ has developed and begun deploying a Windows 7 image that
          complies with 99.9 percent of USGCB requirements. DHS HQ anticipates that
          the migration to Windows 7 will be completed by April 2013.

       Issues To Be Addressed

       Components have not fully implemented all USGCB required settings on their
       workstations. Specifically, we determined that CBP, FEMA, and ICE have
       implemented fewer than 70 percent of the required USGCB settings on their
       Windows XP workstations, putting their machines at a greater risk of potential
       exploitation. Components believe that once migration to Windows 7 is
       complete, Windows XP will become obsolete. However, the majority of DHS’
       workstations are based on Windows XP operating systems, which Microsoft will
       stop supporting in 2014. Further, while six components are migrating to
       Windows 7, two components have not established an estimated completion date
       for their Windows 7 migration. Figure 1 depicts component USGCB compliance
       by operating system.




                                         12

www.oig.dhs.gov	                                                            OIG-13-04
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                Figure 1. Component USGCB Compliance by Operating System11




        •	 CBP has not established a standard USGCB baseline image for its Windows XP
           and Windows 7 user workstations, resulting in an average USGCB compliance
           of less than 50 percent. We reported a similar issue in our FY 2011 report.

        •	 Results from our vulnerability scans on databases and servers indicated that
           components are not applying security patches timely or implementing the
           required security controls. Components included CBP, DHS HQ, FEMA, ICE,
           TSA, NPPD, USCG, USCIS, and USSS. Deficiencies identified include:

            � Missing security patches for operating systems, database applications,
              and installed software, such as Adobe Flash, Adobe Acrobat, Java, and
              Apache;

            � Microsoft Server 2003 and 2008 servers running antivirus software with
              definitions last updated in August 2011; and

            � DHS databases that have accounts with default passwords, weak
              password controls, missing software patches, excess user privileges, and
              vulnerable functionality packages made available to users with the
              “public” role.

11
  Due to workstation management controls, we were not able to evaluate the compliance of Windows XP
workstations at USSS. In addition, NPPD user workstations are managed under the DHS HQ local area
network.

                                                13

www.oig.dhs.gov	                                                                         OIG-13-04
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



        •	 Our security scans identified vulnerabilities in the six public-facing websites
           at CBP, FEMA, ICE, NPPD, USCG, and USCIS. For example, we determined
           that:

            � Six websites have cross-site scripting vulnerabilities that could allow an
              attacker to hijack user accounts, execute malicious scripts, or access
              sensitive information.

            � Two websites are vulnerable to structured query language injection
              attacks that could allow an attacker to read, change, or delete
              information from databases that support vulnerable websites.

            � Two websites have accessible backup files, potentially allowing an 

              attacker to gain unauthorized knowledge of how the website is 

              constructed and use it to exploit weaknesses. 


            � Two websites have vulnerabilities related to logins sent over an
              unencrypted connection or via unencrypted forms, potentially leading to
              impersonation of a legitimate user or unauthorized access to information.

        •	 We reported in June 2012 that, while FEMA had established a Windows XP
           image based on USGCB settings, laptops in the field were not being configured
           with the standard laptop image.12 As a result, our scan results from a
           selection of laptops revealed an average of 55percent Windows XP
           compliance.

        See appendix E for the status of DHS’ Configuration Management Program.

        Incident Response and Reporting Program

        DHS has established adequate incident detection, handling, and analysis
        procedures. In addition, the number of all security incidents reported by the
        DHS Security Operations Center (SOC) has increased by 1 percent, from 1,589 in
        FY 2011 to 1,611 to FY 2012.13 However, there was an overall increase of




12
  ProgressfHasfBeenfMadefinfSecuringfLaptopsfandfWirelessfNetworksfatfFEMAf(OIG-12-93, June 2012).
13
  We evaluated the number of incidents reported by the SOC between October 1 and May 31 for both
FY 2011 and FY 2012.

                                                14

www.oig.dhs.gov	                                                                          OIG-13-04
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


        30 percent for significant incidents reported to the DHS SOC.14 See figure 2 for
        an overview of the incidents that were reported in FY 2012.

                                 Figure 2. FY 2012 SOC Incident Summary




        Progress

        •	 DHS SOC conducts incident analysis and correlation to identify trends along
           with supporting strategy and decision-making. The June 2012 DHS FISMA
           Scorecard identified each component as having received a 100 percent SOC
           and Log metric score.

        Issues To Be Addressed

        •	 During FY 2012, the Domestic Nuclear Detection Office, Office of Intelligence
           and Analysis, Federal Law Enforcement Training Center, MGMT, NPPD, Office
           of Operations Coordination and Planning, OIG, S&T, TSA, USCG, and USSS did
           not consistently submit weekly incident reports to the DHS SOC, as required.

        •	 Based on the June 2012 FISMA scorecard, S&T (52 percent) and USCG
           (64 percent) received a score below 75 percent for the vulnerability

14
  A significant incident is defined as a computer security-related incident that represents a meaningful
threat to the DHS mission and requires immediate notification of leadership.

                                                    15

www.oig.dhs.gov	                                                                                OIG-13-04
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


           management metric, which evaluates components’ ability to detect and
           assess weaknesses in their information systems.

       See appendix F for the status of DHS’ Incident Response and Reporting Program.

       Security Training Program

       The CISO continues to operate an effective security training program. Specifically,
       the CISO Training Office has established a process to validate components’
       security training and has implemented Information System Security Officer
       (ISSO) and System Administrator (SA) role-based training courses. However, the
       CISO is in the process of revising its role-based training program to ensure that
       all personnel with significant security responsibilities receive appropriate training
       content.

       Progress

       •	 During FY 2012, DHS began to revise its role-based training program.
          Specifically, DHS is establishing a process that allows components to share
          training work products, content, and opportunities via Microsoft SharePoint
          for employees with similar significant security roles. As part of this effort,
          DHS has identified more than 100 unique significant security roles across the
          Department.
       •	 During FY 2012, the number of ISSO role-based training courses provided by
          DHS has increased from 8 in FY 2011 to 12 in FY 2012. In addition, the
          number of SA courses offered has doubled from two in FY 2011 to four in
          FY 2012.

       Issues To Be Addressed

       •	 As of August 2012, DHS is in the planning phase of using Microsoft
          SharePoint to enhance its revised role-based training program. According to
          CISO personnel, the implementation should be completed by FY 2013.

       •	 As of July 2012, ISO (31 percent), S&T (38 percent), and USCG (42 percent)
          are maintaining a completion percentage of 42 percent or below for
          specialized training.

       See appendix G for the status of DHS’ Security Training Program.



                                            16

www.oig.dhs.gov	                                                                  OIG-13-04
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        Remote Access Program


        According to DHS policy, components are responsible for managing all remote
        access and dial-in connections to their systems through the use of two-factor
        authentication, providing audit capabilities, and protecting sensitive information
        throughout transmission. We reviewed the remote access programs at CBP,
        FEMA, ICE, TSA, USCG, USCIS, and USSS.

        Overall, components utilizing remote access have developed policies to outline
        the controls needed to protect remote connections and have implemented
        mitigating security controls (multi-factor authentication, firewalls, virtual private
        network concentrators, etc.) to protect against external threats.

        See appendix I for the status of DHS’ Remote Access Program.

        Account and Identity Management Program

        DHS has made progress in implementing an agency-wide system access
        management program. However, DHS does not have a centralized capability to
        identify users and devices connected to its systems. Specifically, components
        are currently maintaining their own account and identity management programs.

        Progress

        •	 DHS has issued Homeland Security Presidential Directive 12 (HSPD-12)
           PIV-compliant cards to all employees and contractors across the Department.

        •	 On July 31, 2012, the Undersecretary for Management issued a memorandum
           providing components with additional guidance regarding the use of
           PIV-compliant cards to access DHS unclassified networks. Components are
           required to develop an executable plan and allocate sufficient funding to
           achieve full implementation.15

        •	 Components have provided the DHS Identity, Credential, and Access Program
           Management Office (ICAM PMO) with PIV card implementation plans, as
           required.



15
  ImplementationfoffMandatoryfUsefoffthefPersonalfIdentityfVerificationf(PIV)fCardftofAccessfDHSf
Networks,fJuly 31, 2012.

                                                   17

www.oig.dhs.gov	                                                                              OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       •	 The ICAM PMO has reviewed component implementation plans to develop a
          Department-wide PIV-enabled logical access plan, which includes milestones,
          cost estimates, and technical requirements. Furthermore, the ICAM PMO
          has issued concept of operations and other PIV user guidance.

       •	 DHS has revised its Information Technology Acquisition Review process to
          require components to include a PIV credential compliance clause when
          procuring IT products, systems, services, hardware, or software.

       Issues To Be Addressed

       •	 DHS is not utilizing PIV-compliant cards to access its information systems, as
          required by OMB. The Department’s goal is to achieve 20 percent
          compliance by the end of FY 2012, 50 percent by the end of FY 2013, and
          75 percent by the end of FY 2014 for accessing components’ local area
          networks. However, DHS has not established milestones to address the use
          of PIV cards to access its major applications.

       •	 DHS has yet to employ HSPD-12-compliant cards to access its classified
          systems. The National Security Systems Joint Program Management Office
          has developed a department-wide implementation plan, which has not been
          approved as of June 30, 2012. Further, the plan does not address PIV
          credential access to stand-alone classified systems.

       See appendix J for the status of DHS’ Account and Identity Management
       Program.

       Continuous Monitoring Program

       DHS has further improved the automated collection capability of its assets by
       disseminating a standardized monthly feed template to components, developing
       a parser to organize scan data, and providing installation and technical support
       for components’ data feed submissions. During FY 2012, the CISO performed 41
       critical control reviews on selected information systems to ensure that key
       controls have been implemented and to help components identify potential
       weaknesses or vulnerabilities.

       Progress

       •	 The CISO conducts continuous monitoring working group meetings with the
          components monthly. The focus of these meetings is to discuss the

                                           18

www.oig.dhs.gov	                                                                OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


           Enterprise Continuous Monitoring Strategy Development status and monthly
           data feed status and issues.

       •	 As part of its effort to establish a robust, enterprise-wide continuous
          monitoring program, DHS has revised its information security scorecard to
          include an HSPD-12 PIV card logical access, monthly asset reporting, and SOC
          log aggregation metrics to monitor components’ progress.

       Issues to Be Addressed

       •	 DHS and its components have not established a real-time and fully
          automated continuous monitoring capability to track all hardware and
          network devices, external connections, and software associated with their
          information systems.

       •	 As of June 2012, five components (FEMA, ICE, S&T, USCG, and USCIS) have
          scores of 75 percent or below for the overall information security.

       •	 As of June 2012, DHS has not performed any critical control reviews on its
          Top Secret systems.

       See appendix K for the status of DHS’ Continuous Monitoring Program.

       Contingency Planning Program

       DHS maintains an entity-wide business continuity and contingency planning
       program. However, components have not complied with all of the Department’s
       contingency planning requirements.

       Progress

       •	 DHS has updated its policies and procedures for its continuity and
          contingency planning program. Specifically, DHS has developed or updated
          the following documents during FY 2012:

           � DHSfTest,fTrainingfandfExercisef(TTE)fProgramfPlanf– January 2012
           � DHSfHeadquartersfReconstitutionfPlan – March 5, 2012
           � DHSfHeadquartersfContinuityfoffOperationsf(COOP)fPlan – June 4, 2012




                                          19

www.oig.dhs.gov	                                                              OIG-13-04
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        •	 DHS has developed training, testing, and exercise approaches for its business
           continuity and disaster recovery programs. For example, from March to
           June 2012, DHS and its components participated in Federal Government
           continuity exercises to test activation continuity plans, information sharing,
           systems and procedures, and operational capabilities.

        Issues To Be Addressed

        •	 The DHSfContinuityfPlan is under development. According to a DHS Business
           Continuity and Emergency Preparedness Branch official, the plan will be
           completed by September 2012.

        •	 Our review of 25 security authorization packages revealed that contingency
           plans and/or testing reports for 6 systems are missing certain elements,
           including the identification of alternate processing facilities, or restoration
           procedures. In addition, one contingency plan is not up-to-date. As part of
           the Department’s overall contingency planning and disaster recovery efforts,
           DHS requires an IT contingency plan be developed for all IT systems, detailing
           how the system will be recovered in the event of an emergency or disaster.

        See appendix L for the status of DHS’ Contingency Planning Program.

        Security Capital Planning Program

        DHS continues to base its Capital Planning and Investment Control (CPIC) process
        on OMB’s Circular A-11, Part 7 - Planning,fBudgeting,fAcquisition,fandf
        ManagementfoffCapitalfAssets, which defines the policies for planning, budgeting,
        acquiring, and managing Federal capital assets.16 The DHS CPIC Guide provides
        components with policies and procedures for selecting, monitoring, and
        evaluating the Department’s IT and non-IT investments to ensure that each
        investment is successfully managed, cost-effective, and supports DHS’ mission
        and strategic goals.17 In addition, as part of its Information Technology
        Acquisition Review process, the Chief Information Officer reviews any proposed
        IT acquisition of $2.5 million and above. Finally, DHS has developed an automated
        process to ensure that the Department’s IT and non- IT investments are
        successfully managed, cost-effective, and support its mission and strategic goals.

16
   OMB’s Circular A-11, Part 7 – Planning,fBudgeting,fAcquisition,fandfManagementfoffCapitalfAssets, 

June 2008.

17
   DepartmentfoffHomelandfSecurityfCapitalfPlanningfandfInvestmentfControlf(CPIC)fGuide, version 7.1, 

August 2010.


                                                   20

www.oig.dhs.gov	                                                                              OIG-13-04
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



       See appendix N for the status of DHS’ Security Capital Planning Program.

       Recommendations

       We recommend that the CISO:

       Recommendation #1:

       Establish a process to ensure that USGCB settings are implemented and
       maintained at components.

       Recommendation #2:

       Strengthen the ISO review process to ensure that all applicable controls are
       included in the security documentation when authorizing systems.

       Recommendation #3:

       Improve the process to ensure that DHS baseline configuration settings are
       implemented and maintained on components’ information systems. The process
       should include testing and the use of automated tools and security templates.

       Recommendation #4:

       Strengthen the ISO review process to ensure that POA&Ms, including those for
       classified systems, are complete and current.

       Recommendation #5:

       Enhance the Department’s revised role-based training program to ensure that
       appropriate role-based training is provided to enable all individuals with
       significant security responsibilities to perform their required security functions.

       Recommendation #6:

       Establish a process to ensure that security patches and service packs are applied
       timely and effective controls are implemented on components’ databases and
       servers.



                                            21

www.oig.dhs.gov                                                                   OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Management Comments and OIG Analysis
       Management Comments to Recommendation #1

       DHS concurred with recommendation 1. The DHS FY 2013 Information Security
       Scorecard will be utilizing continuous monitoring data feeds from component
       tools to monitor the implementation of USGCB settings. The Scorecard will be
       used to communicate progress in addressing gaps and to ensure continued
       compliance. Estimated completion date: December 31, 2012.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin to satisfy this
       recommendation. This recommendation will remain open until DHS provides
       supporting documentation that all planned corrective actions are completed.

       Management Comments to Recommendation #2

       DHS concurred with recommendation 2. The Department provides an enterprise
       security authorization tool to ensure the required security controls and
       documentation are completed. The tool will be revised with improved,
       streamlined templates and controls to increase the quality of security packages
       reviewed by the ISO Document Review Team.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin to satisfy this
       recommendation. This recommendation will remain open until DHS provides
       supporting documentation that all planned corrective actions are completed.

       Management Comments to Recommendation #3

       DHS concurred with recommendation 3. The DHS FY 2013 Information Security
       Scorecard will utilize continuous monitoring data feeds from component tools to
       monitor the implementation of USGCB settings. The Scorecard will be used to
       communicate progress in addressing gaps and to ensure continued compliance.
       The continuous monitoring capabilities can be customized by components to
       monitor their individual baseline control templates. Estimated completion date:
       December 31, 2012.



                                           22

www.oig.dhs.gov                                                                  OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin to satisfy this
       recommendation. This recommendation will remain open until DHS provides
       supporting documentation that all planned corrective actions are completed.

       Management Comments to Recommendation #4

       DHS concurred with recommendation 4. The ISO continues to strengthen the
       POA&M review process to ensure POA&Ms, including those for classified
       systems, are complete and current. ISO has begun closely tracking components’
       progress towards POA&M completion and contacting components when POA&M
       indicators show inadequate progress. Additionally, ISO has begun educating
       components on methods within the DHS compliance tool for checking POA&M
       completeness and monitoring milestone progress so that timely revisions can be
       made to POA&Ms not meeting expectations.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin to satisfy this
       recommendation. This recommendation will remain open until DHS provides
       supporting documentation that all planned corrective actions are completed.

       Management Comments to Recommendation #5

       DHS concurred with recommendation 5. The ISO is developing sample
       courseware and identifying pre-existing federally available courseware to
       supplement existing component role-based training programs. In conjunction
       with component training coordinators, plans are being developed to ensure
       minimum standards can be deployed in a more consistent manner across the
       Department.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin to satisfy this
       recommendation. This recommendation will remain open until DHS provides
       supporting documentation that all planned corrective actions are completed.

       Management Comments to Recommendation #6
       DHS concurred with recommendation 6. The DHS FY 2013 Information Security
       Scorecard will utilize continuous monitoring data feeds from component tools to

                                           23

www.oig.dhs.gov                                                                  OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       monitor security patching of databases and servers. The Scorecard will be used
       to communicate progress in addressing gaps and to ensure continued
       compliance. Estimated completion date: December 31, 2012.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin to satisfy this
       recommendation. This recommendation will remain open until DHS provides
       supporting documentation that all planned corrective actions are completed.




                                           24

www.oig.dhs.gov                                                                  OIG-13-04
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The DHS OIG was established by the HomelandfSecurityfActfoff2002 (Public Law
107- 296) by amendment to the InspectorfGeneralfActfoff1978. This is one of a series of
audit, inspection, and special reports prepared as part of our oversight responsibilities
to promote economy, efficiency, and effectiveness within the Department.

The objective of this review was to determine whether DHS has developed adequate
and effective information security policies, procedures, and practices, in compliance
with FISMA. In addition, we evaluated DHS’ progress in developing, managing, and
implementing its information security program.

Our independent evaluation focused on DHS’ information security program, the
requirements outlined in FISMA, and draft FY 2012 FISMA reporting metrics dated
March 2012. We conducted our fieldwork at the departmental level and at DHS’
organizational components and offices, including CBP, DHS HQ, FEMA, ICE, NPPD, S&T,
TSA, USCG, USCIS, and USSS.

In addition, we conducted reviews of DHS’ information systems and security
program-related areas throughout FY 2012. This report includes the results of a limited
number of systems evaluated during the year and our ongoing financial statement
review.

As part of our evaluation of DHS’ compliance with FISMA, we assessed DHS and its
components with the security requirements mandated by FISMA and other Federal
information security policies, procedures, standards, and guidelines. Specifically, we
(1) used last year’s FISMA independent evaluation as a baseline for this year’s
evaluation; (2) reviewed policies, procedures, and practices that DHS has implemented
at the program and component levels; (3) reviewed DHS’ POA&M process to ensure that
all security weaknesses are identified, tracked, and addressed; (4) reviewed the
processes and status of the Department-wide information security program, including
system inventory, risk management, configuration management, incident response and
reporting, security training, remote access, identity and access management,
continuous monitoring, contingency planning, and security capital planning; and,
(5) developed our independent evaluation of DHS’ information security program.

We reviewed the quality of security authorization packages for a sample of 25 systems
at CBP, DHS HQ, FEMA, ICE, NPPD, S&T, TSA, USCG, USCIS, and USSS to ensure that all of
the required documents were completed prior to system authorization. In addition, we

                                           25

www.oig.dhs.gov                                                                 OIG-13-04
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


evaluated the implementation of DHS’ baseline configurations for 24 systems as well as
the use of industry standard best standards for securing 9 databases and 6 public-facing
component websites at CBP, FEMA, ICE, NPPD, USCG, and USCIS. We also reviewed the
USGCB settings on user workstations at these components.

We conducted this review between April and August 2012 under the authority of the
InspectorfGeneralfActfoff1978, as amended, and according to the Quality Standards for
Inspections issued by the Council of the Inspectors General on Integrity and Efficiency.




                                           26

www.oig.dhs.gov                                                                 OIG-13-04
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Appendix B
Management Comments to the Draft Report



                                                                             U.S. ~putmUlt of Romdand Sec:urity
                                                                             Washingmn, DC 20528



                                                                               Homeland
                                                                               Security
                                                October 1,2012


           MEMORANDUM FOR:               Frank W. DefIer
                                         Assistant lnspector Genera1
                                         Infonnation Technology Audits

           FROM:                         Jim ll. Crumpack,\     ~
                                         Director         ATr
                                         Departmental GA4j6!l\;WSO ce

           SUBJECT:                      Draft OIG Draft Report: "Evaluation of DHS' Infonnation
                                         Security ProgrdID for Fiscal Year 2012"
                                         (OIG Project No. 12-017-ITA-MGMT)


           Thank: you for the opportunity to review and comment on this draft report. The U.S. Department
           ofHomcland Security (DHS) apprec..;ates the Office of Inspector General's (O[G's) work in
           conducting its review and issuing this report.

           We are pleased to note the OIG's positive recognition that the Department continues to improve
           and strengthen its security program. As noted in the report, we have taken actions to address the
           Administration's cybcrsccurity priorities, which include implementation of trust cd internet
           connections. continuously monitoring the Department's information systems, and employing
           persona] identity verification compliant credentials to improve logical access for its systems.
           Additionally. we developed and implemented the Fiscal Year 2012 Information Securiry
           Performance Plan which contains several key elements that are indicative of a strong security
           program, such as plans of action and milestones weakness remediation.

           The draft report contained six recommendaLions with which the Department concurs.
           Specifically. the OIa recommended that the Office of Chief information Security Officer:

           Recommendation]: Establish a process to ensure that USGCB settings are impJementt:d and
           maintained at components.

           Response: Concur. lbe DHS Fiscal Ycar (FY) 2013 Information Security Scorecard will be
           utilizing continuous monitoring dam feeds from Component tools to monitor the implementation
           of United States Government Configuration Baseline (USGCB) settings. The Scorecard will be
           used to communicate progress in addressing gaps and to ensure continued compliance.
           Estimated Completion Date (ECD): December 31,20 12




                                                        27

www.oig.dhs.gov                                                                                                   OIG-13-04
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




           Reco mmendation 2: Strengthen the ISO review process to ensure that all applicable controls
           are included in the security documentation when authorizing systems.

           Response: Concur. The Department provides an enterprise security authorization too] to ensure
           the required security controls and docwnentatioo arc completed. The tool will be revised with
           improved, streamlined templates and controls to increase the quality of security packages
           reviewed by the [nformation Security Office OSO) Document Review Team.

           Recommenda tion 3: Improve the process to ensure that DHS baseline configuration settings
           are impJemented and maintained on components' information systems. The process should
           include testing and the usc of automated tools and security teroplates.

           Response: Concur. The DHS FY 20 13 lnfonnation Security Scorecard will utilize continuous
           monitoring data feeds from Component tools to monitor the implementation of USGCB seltings.
           The Scorecard will be used to communicate progress in addressing gaps and to ensure continued
           compliance. The continuous monitoring capabilities can be customized by Components to
           monitor their individual baseline control templates. ECD: December 31, 2012

           Recommendation 4: Strengthen the ISO review process to ensure: that POA&Ms, including
           those for classified systems, are complctc and current.

           Response: Concur. The ISO continues to strengthen the Plan of Action and Milestones
           (pOA&t'A) review process to ensure POA&Ms, including those for classified systems, are
           complete and current. ISO has begun closely tracking Components' progress towards POA&M
           completion and contacting Components when POA&M indicators show inadequate progress.
           Additionally, ISO has begun educating Components on methods within thc DHS compliance tool
           for checking POA&"\1 completeness and monitoring milestone progress so that tim"ly T"visions
           can be made to POA&Ms not meeting expectations.

           Recommendation 5: Enhance the Department's revised role-based training program to ensure
           that appropriate role-based training is provided to enable all individuals with significant security
           responsibilities to perform their required security functions.

           Response: Concur. The ISO is developing sample courseware and identifying pre-existing
           federally available courseware to supplement existing Component role-based training programs .
           .In conjunction with Component training coordinators, plans are being developed to CDSUre
           minimum standards can be deployed in a more consistent manner across the Department.

           Recommendation 6: Establish a process to ensure that security patches and service packs are
           applied timely and effective controls are implemented on components' databases and servers.

           Response: ConClD'. The DRS FY 2013 lnfonnation Security Scorecard will utilize continuous
           monitoring data feeds from Component tools to monitor security parching of databases and
           serven;. The Scorecard will be used to communicate progress in addressing gaps and to ensure
           continued compliance. ECD: December 31 > 2012



                                                                                                              2




                                                          28

www.oig.dhs.gov                                                                                                   OIG-13-04

                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




           Again, thank you for the opportunity to review and comment on this draft report. Technical
           comments were submitted previously under separate cover. Please feel free to contact me if you
           have any questions. We look forward to working with you in the future.




                                                                                                        3




                                                       29

www.oig.dhs.gov                                                                                             OIG-13-04

                                                       OFFICE OF INSPECTOR GENERAL
                                                             Department of Homeland Security


 Appendix C
 System Inventory

                                                              Question 1: System Inventory
1. Identify the number of agency and contractors’ systems by component and FIPS 199 impact level (low, moderate, high). Please also identify the
number of systems that are used by your agency but owned by another Federal agency (i.e., ePayroll, etc.) by component and FIPS 199 impact level.
                          Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems identified by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and
percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a contingency
plan tested in accordance with policy.
                                             Question 1                                                                 Question 2
                                       a.                   b.                      c.                  a.                   b.                   c.
                                 Agency Systems         Contractor           Total Number of        Number of            Number of           Number of
                                                         Systems                Systems          systems certified      systems for         systems for
                                                                              (Agency and         and accredited       which security           which
                                                                               Contractor                              controls have        contingency
                                                                                systems)                              been tested and     plans have been
                                                                              (Column A +                             reviewed in the         tested in
                                                                               Column B)                                 past year        accordance with
                                                                                                                                                policy

                  FIPS 199
                                                                                       Total
                   System                  Number                Number     Total                 Total    Percent     Total   Percent     Total   Percent
Bureau Name                     Number               Number                           Number
                   Impact                 Reviewed              Reviewed   Number                Number    of Total   Number   of Total   Number   of Total
                                                                                     Reviewed
                    Level
     CBP            High          17          1          0         0          17         1          17      100%        16        94%       14       82%
                  Moderate        65          8          2         0          67         8          63       94%        59        88%       55       82%
                     Low           1          0          0         0           1         0           1      100%         1       100%        1      100%
                     Not
                                   3          0          0         0            3        0          1       33%         1        33%        1       33%
                 Categorized
                  Sub-total       86          9          2         0          88         9          82      93%         77       88%        71      81%




                                                                           30
 www.oig.dhs.gov                                                                             OIG-13-04
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security

 DHS HQ             High      11   2   4          0       15       2          14   93%    7    47%    14   93%
                  Moderate    21   0   11         3       32       3          29   91%    13   41%    30   94%
                    Low       1    0   3          0        4       0          4    100%   2    50%    4    100%
                  Not
                              1    0   3          0        4       0          3    75%    1    25%    0    0%
              Categorized
                  Sub-total   34   2   21         3       55       5          50   91%    23   42%    48   87%
  FEMA           High         20   4    2         0       22       4          18    82%   18   82%    13   59%
               Moderate       37   2   13         0       50       2          40    80%   40   80%    39   78%
                 Low           3   0    0         0        3       0           3   100%    2   67%     2   67%
                  Not
                              10   0   0          0       10       0          6    60%    6    60%    5    50%
              Categorized
               Sub-total      70   6   15         0       85       6          67   79%    66   78%    59   69%
  FLETC          High          0   0    0         0        0       0           0     -     0     -     0     -
               Moderate       11   0    2         0       13       0          12   92%    10   77%    12   92%
                 Low           0   0    0         0        0       0           0     -     0     -     0     -
                  Not
                              0    0   0          0        0       0          0     -     0     -     0     -
              Categorized
               Sub-total      11   0   2          0       13       0          12    92%   10    77%   12    92%
   ICE           High         11   2    1         1       12       3          12   100%   12   100%   11    92%
               Moderate       38   1   12         1       50       2          48    96%   30    60%   49    98%
                 Low           2   0    0         0        2       0           2   100%    2   100%    2   100%
                  Not
                              1    0   0          0        1       0          1    100%   1    100%   1    100%
              Categorized
               Sub-total      52   3   13         2       65       5          63   97%    45   69%    63   97%
  NPPD           High          7   1    6         1       13       2          13   100%   13   100%   12   92%
               Moderate        7   0   11         1       18       1          18   100%   16    89%   16   89%
                 Low           1   0    6         1        7       1           6    86%    6    86%    6   86%
                  Not
                              3    1   0          0        3       1          3    100%   3    100%   2    67%
              Categorized
               Sub-total      18   2   23         3       41       5          40    98%   38   93%    36    88%
   OIG           High          2   0    0         0        2       0           2   100%    1   50%     2   100%
               Moderate       0    0   0          0       0        0           0     -     0     -     0     -



                                                        31

www.oig.dhs.gov                                                        OIG-13-04
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security

                 Low         0    0   0          0        0       0          0      -     0     -     0     -
                  Not
                             1    0   0          0        1       0          1     100%   0    0%     0    0%
              Categorized
               Sub-total    3     0   0          0        3       0           3    100%    1   33%     2   67%
   S&T           High        2    0    0         0        2       0           1     50%    1   50%     1   50%
               Moderate     13    1   13         0       26       1          26    100%   22   85%    23   88%
                 Low         2    0    1         0        3       0           2     67%    0   0%      2   67%
                  Not
                             2    0   0          0        2       0          1     50%    0    0%     1    50%
              Categorized
               Sub-total    19    1   14         0       33       1          30     91%   23   70%    27   82%
   TSA           High       24    1    1         0       25       1          25    100%   24   96%    24   96%
               Moderate     30    2   13         1       43       3          43    100%   39   91%    40   93%
                 Low         6    0    2         0        8       0           8    100%    7   88%     7   88%
                  Not
                             4    1   0          0        4       1          4     100%   4    100%   3    75%
              Categorized
               Sub-total    64    4   16         1       80       5          80    100%   74   93%    74   93%
  USCG           High        9    1    5         1       14       2          13     93%   13   93%    13   93%
               Moderate     67    3   20         0       87       3          67     77%   51   59%    60   69%
                 Low         7    1    2         0        9       1           4     44%    6   67%     6   67%
                  Not
                            35    3   0          0       35       3          33    94%    16   46%    7    20%
              Categorized
               Sub-total    118   8   27         1       145      9          117    81%   86   59%    86   59%
  USCIS          High         4   1    6         0        10      1          10    100%    3   30%     0   0%
               Moderate      21   0   16         3        37      3          24     65%   21   57%    16   43%
                 Low          1   0    3         0         4      0           4    100%    2   50%     2   50%
                  Not
                             2    0   0          0        2       0          1     50%    1    50%    1    50%
              Categorized
               Sub-total    28    1   25         3       53       4          39     74%   27    51%   19   36%
  USSS           High        5    1    0         0        5       1           5    100%    5   100%    4   80%
               Moderate      8    2    0         0        8       2           8    100%    8   100%    6   75%
                 Low         0    0    0         0        0       0           0      -    0      -    0      -




                                                       32

www.oig.dhs.gov                                                       OIG-13-04
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security

                    Not
                               1    0     0          0        1       0           1    100%    1    100%    1    100%
                Categorized
                 Sub-total    14    3     0          0       14        3         14    100%   14    100%   11    79%
Agency Totals      High       112   14   25          3       137      17         130    95%   113    82%   108   79%
                 Moderate     318   19   113         9       431      28         378    88%   309    72%   346   80%
                   Low        24     1   17          1       41        2         34    83%    28     68%   32    78%
                    Not
                              63    5    3           0       66       5          55    83%    34    52%    22    33%
                Categorized
                   Total      517   39   158         13      675      52         597   88%    484   72%    508   75%




                                                           33

 www.oig.dhs.gov                                                           OIG-13-04
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


      Appendix D
      Status of Risk Management Program

                                Section 2: Status of Risk Management Program
                                                                                                              Response:

1. Check one:
 A. The Agency has established and is maintaining a risk management program that is consistent with
    FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement
    opportunities may have been identified by the OIG, the program includes the following attributes:
    1. Documented and centrally accessible policies and procedures for risk management, including
        descriptions of the roles and responsibilities of participants in this process.
    2. Addresses risk from an organization perspective with the development of a comprehensive
        governance structure and organization-wide risk management strategy as described in NIST
        800-37, Rev. 1.
    3. Addresses risk from a mission and business process perspective and is guided by the risk
        decisions at the organizational perspective, as described in NIST 800-37, Rev.1.
    4. Addresses risk from an information system perspective and is guided by the risk decisions at
        the organizational perspective and the mission and business perspective, as described in NIST
        800-37, Rev. 1.
    5. Categorizes information systems in accordance with government policies.
    6. Selects an appropriately tailored set of baseline security controls.
    7. Implements the tailored set of baseline security controls and describes how the controls are
        employed within the information system and its environment of operation.
    8. Assesses the security controls using appropriate assessment procedures to determine the
        extent to which the controls are implemented correctly, operating as intended, and producing             �
        the desired outcome with respect to meeting the security requirements for the system.
    9. Authorizes information system operation based on a determination of the risk to
        organizational operations and assets, individuals, other organizations, and the Nation resulting
        from the operation of the information system and the decision that this risk is acceptable.
    10. Ensures information security controls are monitored on an ongoing basis including assessing
        control effectiveness, documenting changes to the system or its environment of operation,
        conducting security impact analyses of the associated changes, and reporting the security state
        of the system to designated organizational officials.
    11. Information system specific risks (tactical), mission/business specific risks and organizational
        level (strategic) risks are communicated to appropriate levels of the organization.
    12. Senior Officials are briefed on threat activity on a regular basis by appropriate personnel. (e.g.,
        CISO).
    13. Prescribes the active involvement of information system owners and common control
        providers, chief information officers, senior information security officers, authorizing officials,
        and other roles as applicable in the ongoing management of information system-related
        security risks.
    14. Security authorization package contains system security plan, security assessment report, and
        POA&M in accordance with government policies.
    15. Security authorization package contains Accreditation boundaries for Agency information
        systems defined in accordance with government policies.


                                                          34

      www.oig.dhs.gov                                                                                  OIG-13-04

                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


    B. The Agency has established and is maintaining a risk management program. However, the
       Agency needs to make significant improvements as noted below.
    C. The Agency has not established a risk management program.

2. If B. is checked above, check areas that need significant improvement:
      a. Risk Management policy is not fully developed.
      b. Risk Management procedures are not fully developed, sufficiently detailed (SP 800-37,
           SP 800-39, SP 800-53).
      c. Risk Management procedures are not consistently implemented in accordance with
           government policies (SP 800-37, SP 800-39, SP 800-53).
      d. A Comprehensive governance structure and Agency-wide risk management strategy has not
           been fully developed in accordance with government policies (SP 800-37, SP 800-39, SP
           800-53).
      e. Risks from a mission and business process perspective are not addressed (SP 800-37,
           SP 800-39, SP 800-53).
      f. Information systems are not properly categorized (FIPS-199/SP 800-60).
      g. Appropriately tailored baseline security controls are not applied to information systems in
           accordance with government policies (FIPS-200/SP 800-53).
      h. Risk assessments are not conducted in accordance with government policies (SP 800-30).
      i. Security control baselines are not appropriately tailored to individual information systems in
           accordance with government policies (SP 800-53).
      j. The communication of information system specific risks, mission/business specific risks and
           organizational level (strategic) risks to appropriate levels of the organization is not in
           accordance with government policies.
      k. The process to assess security control effectiveness is not in accordance with government
           policies (SP800-53A).
      l. The process to determine risk to agency operations, agency assets, or individuals, or to
           authorize information systems to operate is not in accordance with government policies
           (SP 800-37).
      m. The process to continuously monitor changes to information systems that may necessitate
           reassessment of control effectiveness is not in accordance with government policies
           (SP 800-37).
      n. Security plan is not in accordance with government policies (SP 800-18, SP 800-37).
      o. Security assessment report is not in accordance with government policies (SP 800-53A,
           SP 800-37).
      p. Accreditation boundaries for agency information systems are not defined in accordance with
           government policies.
      q. Other
      r. Explanation for Other


                     • DHS bases its risk management program on NIST SP 800-37, Revision 1, GuidefforfApplyingfthef
                      RiskfManagementfFrameworkftofFederalfInformationfSystems:fAfSecurityfLifefCyclefApproach
                      and incorporated the security authorization process into the DHSfSensitivefSystemsfPolicyf
3. Comments:
                      Directivef4300A for its unclassified systems. For national security systems, components follow
                      the Defense Information Assurance Certification and Accreditation Process and DHS Sensitive
                      Systems Policy Directive 4300B policy.




                                                         35

      www.oig.dhs.gov                                                                                OIG-13-04

                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


      Appendix E
      Status of Configuration Management Program

                          Section 3: Status of Configuration Management Program
                                                                                                           Response:
4. Check one:
 A. The Agency has established and is maintaining a security configuration management program
    that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines. Although
    improvement opportunities may have been identified by the OIG, the program includes the
    following attributes:
    1. Documented policies and procedures for configuration management.
    2. Standard baseline configurations defined.
    3. Assessing for compliance with baseline configurations.
    4. Process for timely, as specified in agency policy or standards, remediation of scan result
         deviations.
    5. For Windows-based components, FDCC/USGCB secure configuration settings fully
         implemented and any deviations from FDCC/USGCB baseline settings fully documented.
    6. Documented proposed or actual changes to hardware and software configurations.
    7. Process for timely and secure installation of software patches.
    8. Software assessing (scanning) capabilities are fully implemented.
    9. Configuration-related vulnerabilities, including scan findings, have been remediated in a
         timely manner, as specified in Agency policy or standards.
    10. Patch management process is fully developed, as specified in Agency policy or standards.
 B. The Agency has established and is maintaining a security configuration management program.
    However, the Agency needs to make significant improvements as noted below.                                �

 C. The Agency has not established a security configuration management program.

5. If B. is checked above, check areas that need significant improvement:
      a. Configuration management policy is not fully developed (NIST 800-53: CM-1).
      b. Configuration management procedures are not fully developed (NIST 800-53: CM-1).
      c. Configuration management procedures are not consistently implemented (NIST 800-53:
           CM-1).
      d. Standard baseline configurations are not identified for software components (NIST 800-53:
           CM-2).
      e. Standard baseline configurations are not identified for all hardware components
           (NIST 800-53: CM-2).                                                                               g
      f. Standard baseline configurations are not fully implemented (NIST 800-53: CM-2).
      g. FDCC/USGCB is not fully implemented (OMB) and/or all deviations are not fully documented
           (NIST 800-53: CM-6).
      h. Software assessing (scanning) capabilities are not fully implemented (NIST 800-53: RA-5, SI-2).
      i. Configuration-related vulnerabilities, including scan findings, have not been remediated in a
           timely manner, as specified in agency policy or standards. (NIST 800-53: CM-4, CM-6, RA-5,
           SI-2).



                                                         36

      www.oig.dhs.gov                                                                                OIG-13-04

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

    j. Patch management process is not fully developed, as specified in agency policy or standards.
       (NIST 800-53: CM-3, SI-2).
    k. Other
    l. Explanation for Other
                                                                                                       - Website
                                                                                                       industry
                                                                                                       standard
                                                                                                       best
6. Identify baselines reviewed:                                                                        practices
     a. Software Name
     b. Software Version                                                                               - Database
                                                                                                       industry
                                                                                                       standard
                                                                                                       best
                                                                                                       practices


                      • Based on our review of 27 systems, we determined that DHS components had not fully
                        configured databases and components’ public-facing websites based on industry standard best
7. Comments:            practices.
                      • DHS HQ, TSA, USCG, and USCIS implemented more than 85 percent of USGCB configuration
                        settings on their workstations.




                                                        37

         www.oig.dhs.gov                                                                          OIG-13-04

                                    OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


      Appendix F
      Status of Incident Response and Reporting Program

                        Section 4: Status of Incident Response & Reporting Program
                                                                                                       Response:
8. Check one:
 A. The Agency has established and is maintaining an incident response and reporting program that is
    consistent with FISMA requirements, OMB policy, and applicable NIST guidelines. Although
    improvement opportunities may have been identified by the OIG, the program includes the
    following attributes:
    1. Documented policies and procedures for detecting, responding to and reporting incidents.
    2. Comprehensive analysis, validation and documentation of incidents.
    3. When applicable, reports to US-CERT within established timeframes.                                  �
    4. When applicable, reports to law enforcement within established timeframes.
    5. Responds to and resolves incidents in a timely manner, as specified in agency policy or
         standards, to minimize further damage.
    6. Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
    7. Is capable of correlating incidents.
    8. There is sufficient incident monitoring and detection coverage in accordance with government
         policies.
 B. The Agency has established and is maintaining an incident response and reporting program.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency has not established an incident response and reporting program.

9. If B. is checked above, check areas that need significant improvement:
     a. Incident response and reporting policy is not fully developed (NIST 800-53: IR-1).
     b. Incident response and reporting procedures are not fully developed or sufficiently detailed
           (NIST 800-53: IR-1).
     c. Incident response and reporting procedures are not consistently implemented in accordance
           with government policies (NIST 800-61, Rev1).
     d. Incidents were not identified in a timely manner, as specified in agency policy or standards
           (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
     e. Incidents were not reported to US-CERT as required (NIST 800-53, 800-61, and OMB
           M-07-16, M-06-19).
     f. Incidents were not reported to law enforcement as required (SP 800-86).
     g. Incidents were not resolved in a timely manner (NIST 800-53, 800-61, and OMB M-07-16,
           M-06-19).
     h. Incidents were not resolved to minimize further damage (NIST 800-53, 800-61, and OMB
           M-07-16, M-06-19).
     i. There is insufficient incident monitoring and detection coverage in accordance with
           government policies (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
     j. The agency cannot or is not prepared to track and manage incidents in a virtual/cloud
           environment.
     k. The agency does not have the technical capability to correlate incident events.
     l. Other
     m. Explanation for Other
                                                        38

      www.oig.dhs.gov                                                                             OIG-13-04

                       OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security




10. Comments:





                                    39

     www.oig.dhs.gov                                      OIG-13-04

                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


      Appendix G
      Status of Security Training Program

                                Section 5: Status of Security Training Program
                                                                                                          Response:
11. Check one:
 A. The Agency has established and is maintaining a security training program that is consistent with
     FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement
     opportunities may have been identified by the OIG, the program includes the following
     attributes:
     1. Documented policies and procedures for security awareness training.
     2. Documented policies and procedures for specialized training for users with significant
          information security responsibilities.
     3. Security training content based on the organization and roles, as specified in agency policy or      �
          standards.
     4. Identification and tracking of the status of security awareness training for all personnel
          (including employees, contractors, and other agency users) with access privileges that
          require security awareness training.
     5. Identification and tracking of the status of specialized training for all personnel (including
          employees, contractors, and other agency users) with significant information security
          responsibilities that require specialized training.
     6. Training material for security awareness training does not contain appropriate content for
          The Agency.
 B. The Agency has established and is maintaining a security training program. However, the Agency
     needs to make significant improvements as noted below.
 C. The Agency has not established a security training program.




                                                         40

      www.oig.dhs.gov                                                                                OIG-13-04

                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

12. If B. is checked above, check areas that need significant improvement:
     a. Security awareness training policy is not fully developed (NIST 800-53: AT-1).
     b. Security awareness training procedures are not fully developed and sufficiently detailed
          (NIST 800-53: AT-1).
     c. Security awareness training procedures are not consistently implemented in accordance
          with government policies (NIST 800-53: AT-2).
     d. Specialized security training policy is not fully developed (NIST 800-53: AT-3).
     e. Specialized security training procedures are not fully developed or sufficiently detailed in
          accordance with government policies (SP 800-50, SP 800-53).
     f. Training material for security awareness training does not contain appropriate content for
          the Agency (SP 800-50, SP 800-53).
     g. Identification and tracking of the status of security awareness training for personnel
          (including employees, contractors, and other agency users) with access privileges that
          require security awareness training is not adequate in accordance with government policies
          (SP 800-50, SP 800-53).
     h. Identification and tracking of the status of specialized training for personnel (including
          employees, contractors, and other agency users) with significant information security
          responsibilities is not adequate in accordance with government policies (SP 800-50,
          SP 800-53).
     i. Training content for individuals with significant information security responsibilities is not
          adequate in accordance with government policies (SP 800-53, SP 800-16).
     j. Less than 90% of personnel (including employees, contractors, and other agency users) with
          access privileges completed security awareness training in the past year.
     k. Less than 90% of employees, contractors, and other users with significant security
          responsibilities completed specialized security awareness training in the past year.
     l. Other
     m. Explanation for Other

                        • DHS has documented policies and procedures for maintaining a security training program.
                        • DHS has established a process to validate components’ security training.
                        • DHS has developed and implemented specialized training courses for system security
13. Comments:
                          officers and system administrators.
                        • DHS utilizes its enterprise management tool to identify and track the status of specialized
                          training for all personnel with significant information security responsibilities.




                                                          41

      www.oig.dhs.gov                                                                                 OIG-13-04

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


      Appendix H
      Status of Plans of Actions and Milestones Program

                  Section 6: Status of Plans of Actions & Milestones (POA&M) Program
                                                                                                         Response:
14. Check one:
 A. The Agency has established and is maintaining a POA&M program that is consistent with FISMA
     requirements, OMB policy, and applicable NIST guidelines and tracks and monitors known
     information security weaknesses. Although improvement opportunities may have been identified
     by the OIG, the program includes the following attributes:
     1. Documented policies and procedures for managing IT security weaknesses discovered during
         security control assessments and requiring remediation.
     2. Tracks, prioritizes and remediates weaknesses.
     3. Ensures remediation plans are effective for correcting weaknesses.
     4. Establishes and adheres to milestone remediation dates.
                                                                                                            �
     5. Ensures resources are provided for correcting weaknesses.
     6. POA&Ms include security weaknesses discovered during assessments of security controls and
         requiring remediation. (Do not need to include security weaknesses due to a Risk Based
         Decision to not implement a security control.)
     7. Costs associated with remediating weaknesses are identified.
     8. Program officials and contractors report progress on remediation to CIO on a regular basis, at
         least quarterly, and the CIO centrally tracks, maintains, and independently reviews/validates
         the POA&M activities at least quarterly.
 B. The Agency has established and is maintaining a POA&M program that tracks and remediates
     known information security weaknesses. However, the Agency needs to make significant
     improvements as noted below.
 C. The Agency has not established a POA&M program.




                                                        42

      www.oig.dhs.gov                                                                              OIG-13-04

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

15. If B. is checked above, check areas that need significant improvement:
    a. POA&M Policy is not fully developed.
    b. POA&M procedures are not fully developed and sufficiently detailed.
    c. POA&M procedures are not consistently implemented in accordance with government
          policies.
    d. POA&Ms do not include security weaknesses discovered during assessments of security
          controls and requiring remediation (OMB M-04-25).
    e. Remediation actions do not sufficiently address weaknesses in accordance with government
          policies (NIST SP 800-53, Rev. 3, Sect. 3.4 Monitoring Security Controls).
    f. Source of security weaknesses are not tracked (OMB M-04-25).
    g. Security weaknesses are not appropriately prioritized (OMB M-04-25).
    h. Milestone dates are not adhered to (OMB M-04-25).
    i. Initial target remediation dates are frequently missed (OMB M-04-25).
    j. POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3, Control CA-5, and OMB
          M-04-25).
    k. Costs associated with remediating weaknesses are not identified (NIST SP 800-53, Rev. 3,
          Control PM-3 and OMB M-04-25).
    l. Agency CIO does not track and review POA&Ms (NIST SP 800-53, Rev. 3, Control CA-5, and
          OMB M-04-25).
    m. Other
    n. Explanation for Other
                        • DHS requires components to create and manage POA&Ms for all known IT security
                          weaknesses.
                        • DHS has developed policies and procedures for managing IT security weaknesses discovered
                          during security control assessments and requiring remediation.
                        • As of June 30, 2012, DHS has 4,377 open POA&Ms. However, components are not entering
16. Comments:             and tracking all IT security weaknesses in DHS’ unclassified and classified enterprise
                          management tools, nor are all of the data entered by the components accurate and updated
                          in a timely manner.
                        • DHS creates quarterly POA&M progress reports, tracking weakness remediation and
                          maintenance.




                                                        43

      www.oig.dhs.gov                                                                              OIG-13-04

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


      Appendix I
      Status of Remote Access Program

                                Section 7: Status of Remote Access Program
                                                                                                        Response:
17. Check one:
 A. The Agency has established and is maintaining a remote access program that is consistent with
    FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement
    opportunities may have been identified by the OIG, the program includes the following attributes:
    1. Documented policies and procedures for authorizing, monitoring, and controlling all methods
        of remote access.
    2. Protects against unauthorized connections or subversion of authorized connections.
    3. Users are uniquely identified and authenticated for all access.
    4. Telecommuting policy is fully developed.
    5. If applicable, multi-factor authentication is required for remote access.                           �
    6. Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote
        electronic authentication, including strength mechanisms.
    7. Defines and implements encryption requirements for information transmitted across public
        networks.
    8. Remote access sessions, in accordance to OMB M-07-16, are timed-out after 30 minutes of
        inactivity after which re-authentication is required.
    9. Lost or stolen devices are disabled and appropriately reported.
    10. Remote access rules of behavior are adequate in accordance with government policies.
    11. Remote access user agreements are adequate in accordance with government policies.
 B. The Agency has established and is maintaining a remote access program. However, the Agency
    needs to make significant improvements as noted below.
 C. The Agency has not established a program for providing secure remote access.

18. If B. is checked above, check areas that need significant improvement:
    a. Remote access policy is not fully developed (NIST 800-53: AC-1, AC-17).
    b. Remote access procedures are not fully developed and sufficiently detailed (NIST 800-53: AC-1,
          AC-17).
    c. Remote access procedures are not consistently implemented in accordance with government
          policies (NIST 800-53: AC-1, AC-17).
    d. Telecommuting policy is not fully developed (NIST 800-46, Section 5.1).
    e. Telecommuting procedures are not fully developed or sufficiently detailed in accordance with
          government policies (NIST 800-46, Section 5.4).
    f. Agency cannot identify all users who require remote access (NIST 800-46, Section 4.2,
          Section 5.1).
    g. Multi-factor authentication is not properly deployed (NIST 800-46, Section 2.2, Section 3.3).
    h. Agency has not identified all remote devices (NIST 800-46, Section 2.1).
    i. Agency has not determined all remote devices and/or end user computers have been properly
          secured (NIST 800-46, Section 3.1 and 4.2).
    j. Agency does not adequately monitor remote devices when connected to the agency’s
          networks remotely in accordance with government policies (NIST 800-46, Section 3.2).


                                                       44

      www.oig.dhs.gov                                                                             OIG-13-04

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

   k. Lost or stolen devices are not disabled and appropriately reported (NIST 800-46, Section 4.3,
      US-CERT Incident Reporting Guidelines).
   l. Remote access rules of behavior are not adequate in accordance with government policies
      (NIST 800-53, PL-4).
   m. Remote access user agreements are not adequate in accordance with government policies
      (NIST 800-46, Section 5.1, NIST 800-53, PS-6).
   n. Other
   o. Explanation for Other



19. Comments:




                                                       45

        www.oig.dhs.gov                                                                          OIG-13-04

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


      Appendix J
      Status of Account and Identity Management Program

                     Section 8: Status of Account and Identity Management Program
                                                                                                          Response:
20. Check one:
 A. The Agency has established and is maintaining an identity and access management program that is
    consistent with FISMA requirements, OMB policy, and applicable NIST guidelines and identifies
    users and network devices. Although improvement opportunities may have been identified by the
    OIG, the program includes the following attributes:
    1. Documented policies and procedures for account and identity management.
    2. Identifies all users, including Federal employees, contractors, and others who access Agency
        systems.
    3. Identifies when special access requirements (e.g., multi-factor authentication) are necessary.
    4. If multi-factor authentication is in use, it is linked to the Agency’s PIV program where              �
        appropriate.
    5. Agency has adequately planned for implementation of PIV for logical access in accordance
        with government policies.
    6. Ensures that the users are granted access based on needs and separation of duties principles.
    7. Identifies devices that are attached to the network and distinguishes these devices from users.
    8. Identifies all User and Non-User Accounts (refers to user accounts that are on a system).
    9. Ensures that accounts are terminated or deactivated once access is no longer required.
    10. Identifies and controls use of shared accounts.
 B. The Agency has established and is maintaining an identity and access management program that
    identifies users and network devices. However, the Agency needs to make significant
    improvements as noted below.
 C. The Agency has not established an identity and access management program.

21. If B. is checked above, check areas that need significant improvement:
     a. Account management policy is not fully developed (NIST 800-53: AC-1).
     b. Account management procedures are not fully developed and sufficiently detailed
           (NIST 800-53: AC-1).
     c. Account management procedures are not consistently implemented in accordance with
           government policies (NIST 800-53: AC-2).
     d. Agency cannot identify all User and Non-User Accounts (NIST 800-53, AC-2).
     e. Accounts are not properly issued to new users (NIST 800-53, AC-2).
     f. Accounts are not properly terminated when users no longer require access (NIST 800-53,
           AC-2).
     g. Agency does not use multi-factor authentication where required (NIST 800-53, IA-2).
     h. Agency has not adequately planned for implementation of PIV for logical access in accordance
           with government policies (HSPD-12, FIPS-201, OMB M-05-24, OMB M-07-06, OMB M-08-01,
           OMB M-11-11).
     i. Privileges granted are excessive or result in capability to perform conflicting functions (NIST
           800-53, AC-2, AC-6).
     j. Agency does not use dual accounts for administrators (NIST 800-53, AC-5, AC-6).
     k. Network devices are not properly authenticated (NIST 800-53, IA-3).

                                                        46

      www.oig.dhs.gov                                                                              OIG-13-04

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

   l. The process for requesting or approving membership in shared privileged accounts is not
      adequate in accordance to government policies.
   m. Use of shared privileged accounts is not necessary or justified.
   n. When shared accounts are used, the Agency does not renew shared account credentials when
      a member leaves the group.
   o. Other
   p. Explanation for Other

                   DHS has not yet fully implemented required multi-factor authentication across the Department.
                   DHS has issued HSPD 12 PIV compliant cards to all employees and contractors across the
22. Comments:
                   Department. However, the Department is not utilizing PIV compliant cards to access all its
                   information systems, and plans to achieve only 20 percent compliance by the end of FY 2012.




                                                       47

        www.oig.dhs.gov                                                                           OIG-13-04

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


      Appendix K
      Status of Continuous Monitoring Program

                           Section 9: Status of Continuous Monitoring Program
                                                                                                        Response:
23. Check one:
 A. The Agency has established an enterprise-wide continuous monitoring program that assesses the
    security state of information systems that is consistent with FISMA requirements, OMB policy, and
    applicable NIST guidelines. Although improvement opportunities may have been identified by the
    OIG, the program includes the following attributes:
    1. Documented policies and procedures for continuous monitoring.                                       �
    2. Documented strategy and plans for continuous monitoring.
    3. Ongoing assessments of security controls (system-specific, hybrid, and common) that have
        been performed based on the approved continuous monitoring plans.
    4. Provides authorizing officials and other key system officials with security status reports
        covering updates to security plans and security assessment reports, as well as POA&M
        additions and updates with the frequency defined in the strategy and/or plans.
 B. The Agency has established an enterprise-wide continuous monitoring program that assesses the
    security state of information systems. However, the Agency needs to make significant
    improvements as noted below.
 C. The Agency has not established a continuous monitoring program.

24. If B. is checked above, check areas that need significant improvement:
     a. Continuous monitoring policy is not fully developed (NIST 800-53: CA-7).
     b. Continuous monitoring procedures are not fully developed (NIST 800-53: CA-7).
     c. Continuous monitoring procedures are not consistently implemented (NIST 800-53: CA-7;
          800-37 Rev 1, Appendix G).
     d. Strategy or plan has not been fully developed for enterprise-wide continuous monitoring (NIST
          800-37 Rev 1, Appendix G).
     e. Ongoing assessments of security controls (system-specific, hybrid, and common) have not
          been performed (NIST 800-53, NIST 800-53A).
     f. The following were not provided to the authorizing official or other key system officials:
          security status reports covering continuous monitoring results, updates to security plans,
          security assessment reports, and POA&Ms (NIST 800-53, NIST 800-53A).
     g. Other
     h. Explanation for Other




                                                       48

      www.oig.dhs.gov                                                                            OIG-13-04

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                 DHS has established an entity-wide continuous monitoring program that assesses the security
                 state of information systems that is generally consistent with applicable NIST guidance. For
                 example, we determined:

                  • DHS’ continuous monitoring program is focused at the asset level, which includes the
25. Comments:        monitoring of system vulnerabilities, configuration settings, malware, patch information,
                     hardware, and software installed on its systems.
                  •	 DHS collects component data through manual and automated processes that is compiled into
                     a monthly FISMA scorecard. The scorecard provides an information security grade that is
                     comprised of various continuous monitoring metrics (i.e., security authorization, weakness
                     remediation, asset management).




                                                     49

     www.oig.dhs.gov                                                                            OIG-13-04

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    Appendix L
    Status of Contingency Planning Program

                           Section 10: Status of Contingency Planning Program
                                                                                                      Response:
26. Check one:
 A. The Agency established and is maintaining an enterprise-wide business continuity/disaster
    recovery program that is consistent with FISMA requirements, OMB policy, and applicable NIST
    guidelines. Although improvement opportunities may have been identified by the OIG, the
    program includes the following attributes:
    1. Documented business continuity and disaster recovery policy providing the authority and
        guidance necessary to reduce the impact of a disruptive event or disaster.
    2. The agency has performed an overall Business Impact Analysis (BIA).
    3. Development and documentation of division, component, and IT infrastructure recovery
        strategies, plans and procedures.
    4. Testing of system specific contingency plans.                                                     �
    5. The documented business continuity and disaster recovery plans are in place and can be
        implemented when necessary.
    6. Development of test, training, and exercise (TT&E) programs.
    7. Performance of regular ongoing testing or exercising of business continuity/disaster
        recovery plans to determine effectiveness and to maintain current plans.
    8. After-action report that addresses issues identified during contingency/disaster recovery
        exercises.
    9. Systems that have alternate processing sites.
    10. Alternate processing sites are subject to the same risks as primary sites.
    11. Backups of information that are performed in a timely manner.
    12. Contingency planning that consider supply chain threats.
 B. The Agency has established and is maintaining an enterprise-wide business continuity/disaster
    recovery program. However, the Agency needs to make significant improvements as noted
    below.
 C. The Agency has not established a business continuity/disaster recovery program.

27. If B. is checked above, check areas that need significant improvement:
     a. Contingency planning policy is not fully developed contingency planning policy is not
          consistently implemented (NIST 800-53: CP-1).
     b. Contingency planning procedures are not fully developed (NIST 800-53: CP-1).
     c. Contingency planning procedures are not consistently implemented (NIST 800-53; 800-34).
     d. An overall business impact assessment has not been performed (NIST SP 800-34).
     e. Development of organization, component, or infrastructure recovery strategies and plans
          has not been accomplished (NIST SP 800-34).
     f. A business continuity/disaster recovery plan has not been developed (FCD1, NIST SP 800-34).
     g. A business continuity/disaster recovery plan has been developed, but not fully implemented
          (FCD1, NIST SP 800-34).
     h. System contingency plans missing or incomplete (FCD1, NIST SP 800-34, NIST SP 800-53).
     i. Systems contingency plans are not tested (FCD1, NIST SP 800-34, NIST SP 800-53).

                                                     50

    www.oig.dhs.gov                                                                            OIG-13-04

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

   j.   Test, training, and exercise programs have not been developed (FCD1, NIST SP 800-34, NIST
        800-53).
   k.   Test, training, and exercise programs have been developed, but are not fully implemented
        (FCD1, NIST SP 800-34, NIST SP 800-53).
   l.   After-action report did not address issues identified during contingency/disaster recovery
        exercises (FCD1, NIST SP 800-34).
   m.   Systems do not have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
   n.   Alternate processing sites are subject to the same risks as primary sites (FCD1,
        NIST SP 800-34, NIST SP 800-53).
   o.   Backups of information are not performed in a timely manner (FCD1, NIST SP 800-34, NIST
        SP 800-53).
   p.   Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST SP 800-53).
   q.   Backups are not properly secured and protected (FCD1, NIST SP 800-34, NIST SP 800-53).
   r.   Contingency planning does not consider supply chain threats.
   s.   Other
   t.   Explanation for Other



28. Comments:




                                                     51

   www.oig.dhs.gov                                                                              OIG-13-04

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


      Appendix M
      Status of Agency Program to Oversee Contractor Systems

                  Section 11: Status of Agency Program to Oversee Contractor Systems
                                                                                                          Response:
29. Choose one:
 A. The Agency has established and maintains a program to oversee systems operated on its behalf by
    contractors or other entities, including Agency systems and services residing in the cloud external
    to the Agency. Although improvement opportunities may have been identified by the OIG, the
    program includes the following attributes:
    1. Documented policies and procedures for information security oversight of systems operated
         on the Agency’s behalf by contractors or other entities, including Agency systems and services
         residing in public cloud.
    2. The Agency obtains sufficient assurance that security controls of such systems and services are
         effectively implemented and comply with Federal and agency guidelines.
    3. A complete inventory of systems operated on the Agency’s behalf by contractors or other               �
         entities, including Agency systems and services residing in public cloud.
    4. The inventory identifies interfaces between these systems and Agency-operated systems.
    5. The Agency requires appropriate agreements (e.g., MOUs, Interconnection Security
        Agreements, contracts, etc.) for interfaces between these systems and those that it owns and
        operates.
    6. The inventory of contractor systems is updated at least annually.
    7. Systems that are owned or operated by contractors or entities, including Agency systems and
        services residing in public cloud, are compliant with FISMA requirements, OMB policy, and
        applicable NIST guidelines.
 B. The Agency has established and maintains a program to oversee systems operated on its behalf by
    contractors or other entities, including Agency systems and services residing in public cloud.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency does not have a program to oversee systems operated on its behalf by contractors or
    other entities, including Agency systems and services residing in public cloud.




                                                        52

      www.oig.dhs.gov                                                                              OIG-13-04

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


      Appendix N
      Status of Security Capital Planning Program

                          Section 12: Status of Security Capital Planning Program
                                                                                                       Response:
32. Check one:
 A. The Agency has established and maintains a security capital planning and investment program for
     information security. Although improvement opportunities may have been identified by the OIG,
     the program includes the following attributes:
     1. Documented policies and procedures to address information security in the capital planning
         and investment control process.
     2. Includes information security requirements as part of the capital planning and investment
         process.                                                                                          �
     3. Establishes a discrete line item for information security in organizational programming and
         documentation.
     4. Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources
         required.
     5. Ensures that information security resources are available for expenditure as planned.
 B. The Agency has established and maintains a capital planning and investment program. However,
    the Agency needs to make significant improvements as noted below.
 C. The Agency does not have a capital planning and investment program.

33. If B. is checked above, check areas that need significant improvement:
     a. CPIC information security policy is not fully developed.
     b. CPIC information security procedures are not fully developed.
     c. CPIC information security procedures are not consistently implemented.
     d. The Agency does not adequately plan for IT security during the CPIC process (SP 800-65).
     e. The Agency does not include a separate line for information security in appropriate
          documentation (NIST 800-53: SA-2).
     f. Exhibits 300/53 or business cases do not adequately address or identify information security
          costs (NIST 800-53: PM-3).
     g. The Agency does not provide IT security funding to maintain the security levels identified.
     h. Other
     i. Explanation for Other




                                                        53

      www.oig.dhs.gov                                                                             OIG-13-04

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                    DHS maintains a security capital planning and investment program for information security. For
                    example:

                    •	 DHS bases its CPIC process on OMB’s Circular A-11, Part 7 - Planning,fBudgeting,fAcquisition,f
                       andfManagementfoffCapitalfAssets which defines the policies for planning, budgeting,
34. Comments:          acquiring, and managing Federal capital assets.18
                    •	 DHS has developed an automated process to help ensure that the department’s IT and non-IT
                       investments are successfully managed, cost effective, and support DHS’ mission and strategic
                       goals.
                    •	 DHS produces a supplementary budgetary document known as an exhibit 53b which
                       specifically outlines the Department’s information security costs.




     18
       OMB’s Circular A-11, Part 7 – Planning,fBudgeting,fAcquisition,fandfManagementfoffCapitalfAssets,
     June 2008.

                                                        54
     www.oig.dhs.gov                                                                                OIG-13-04
                      OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix O
Major Contributors to This Report
Chiu-Tong Tsang, Director
Aaron Zappone, Team Lead
Amanda Strickler, IT Specialist
Michael Kim, IT Auditor
David Bunning, IT Specialist
Pachern Thapanawat, IT Auditor
Greg Wilson, Management/Program Assistant
Thomas Rohrback, Referencer




                                      55

www.oig.dhs.gov                                             OIG-13-04
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix P
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Chief Information Officer
Acting Chief Information Security Officer
Acting Director, Compliance and Oversight, Office of CISO
Chief Information Officer Audit Liaison
Chief Information Security Officer Audit Liaison
Component Chief Information Officers
Component Chief Information Security Officers
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




                                          56

www.oig.dhs.gov                                                         OIG-13-04
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
